     Office of Inspector General


                                                                               April 15, 2014

     Mr. Daniel Yohannes
     Chief Executive Officer
     Millennium Challenge Corporation
     875 Fifteenth Street, N.W.
     Washington, DC 20005-2203

     Dear Mr. Yohannes:

     This letter transmits the Office of Inspector General’s (OIG’s) final report on the
     Millennium Challenge Corporation’s Fiscal Year 2013 Compliance With the Improper
     Payments Elimination and Recovery Act of 2010 (M-000-14-002-S). Our fiscal year 2013
     evaluation determined that the Millennium Challenge Corporation (MCC) complied with
     the key provisions of the act as stipulated by the Office of Management and Budget. We
     have received your written comments to the draft report and acknowledge your
     response.

     We will also issue a copy of the final report to the Senate Homeland Security and
     Governmental Affairs Committee, the House Committee on Oversight and Government
     Reform, the Comptroller General of the United States, and the Controller of the Office of
     Management and Budget.

     OIG appreciates the cooperation and courtesies extended during this evaluation. We
     look forward to working with your staff during the next annual evaluation.


                                                 Sincerely,

                                                        /s/

                                                 Michael Carroll
                                                 Acting Inspector General




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
cc:   Eric Redmond, Assistant Deputy Chief Financial Officer, Administration & Finance
      redmondeg@mcc.gov

      Don Geiger, Senior Accountant, Administration & Finance
      geigerdr@mcc.gov

      Chantale Wong, Vice President, Administration & Finance
      wongcy@mcc.gov
SUMMARY
On July 22, 2010, Congress passed the Improper Payments Elimination and Recovery Act of
2010 (Public Law 111-204). The act (IPERA) amended the Improper Payments Information Act,
repealed the Recovery Auditing Act, and significantly increased the number of improper-
payments audits agencies need to conduct. Auditors must now review all payments and
activities with annual outlays of more than $1 million.

To help agencies implement the act, the Office of Management and Budget (OMB) issued
Memorandum M-11-16, providing guidance and requiring agencies to submit plans that describe
their current efforts for payment recapture audits. The memorandum specifies that if an agency
fails to not meet any of the requirements, it is not in compliance with IPERA. In addition, the
agency’s inspector general should evaluate the accuracy and completeness of the agency’s
reporting and performance in reducing and recapturing improper payments.

OMB Memorandum M-11-16 states:

       An improper payment is any payment that should not have been made or that
       was made in an incorrect amount under statutory, contractual, administrative, or
       other legally applicable requirements. Incorrect amounts are overpayments or
       underpayments that are made to eligible recipients (including inappropriate
       denials of payment or service, any payment that does not account for credit for
       applicable discounts, payments that are for the incorrect amount, and duplicate
       payments). An improper payment also includes any payment that was made to
       an ineligible recipient or for an ineligible good or service, or payments for goods
       or services not received (except for such payments authorized by law). In
       addition, when an agency's review is unable to discern whether a payment was
       proper as a result of insufficient or lack of documentation, this payment must also
       be considered an improper payment.

The Office of Inspector General (OIG) performed this evaluation to determine whether
Millennium Challenge Corporation (MCC) complied with IPERA for fiscal year 2013.

OIG determined that MCC was in compliance with the requirements of IPERA, as shown in the
following table.




                                                                                             1
                        MCC’s Compliance With Improper Payments Requirements
                                       Requirement                                                    Compliant
1. Publish a Performance Accountability Report (PAR) or Agency Financial Report                 Yes
(AFR) for the most recent fiscal year, and post that report and any accompanying
materials required by OMB on the agency Web site.
2. Conduct a program-specific risk assessment for each program or activity that                 Yes
conforms with Section 3321, Title 31 of the U.S. Code (if required).
3. Publish improper payment estimates for all programs and activities identified as             Not Applicable*
susceptible to significant improper payment under its risk assessment (if required).

4. Publish programmatic corrective action plans in the PAR or AFR (if required).                Not Applicable*
5. Publish and meet annual reduction targets for each program assessed to be a                  Not Applicable*
risk, and measure for improper payments.
6. Report a gross improper payment rate of less than 10 percent for each program                Not Applicable*
and activity for which an improper payment estimate was obtained and published in
the PAR or AFR.
7. Report information on its efforts to recapture improper payments.                            Not Applicable*

* MCC did not have to meet OMB Requirements 3-7 above, because it determined that its programs were not
susceptible to significant improper payments. Moreover, MCC reported that it did perform statistical samples for four of
its funds (Compacts, 609(g), Administrative, and Due Diligence). According to MCC, these samples did not identify any
improper payments.




                                                                                                                    2
STATUS OF PRIOR YEAR’S
FINDINGS
There were no findings related to IPERA in the prior fiscal year.




                                                                    3
SCOPE AND METHODOLOGY
Scope

We conducted this evaluation in accordance with the Quality Standards for Inspection and
Evaluation issued in 2012 by the Council of the Inspectors General on Integrity and Efficiency.
Our evaluation does not provide a legal determination on MCC’s compliance with the specified
requirements.

MCC management is responsible for (1) complying with IPERA requirements, (2) reporting
improper payments in accordance with OMB Circular A-136, Section II.5.8, , as amended by
IPERA, and (3) complying with other applicable laws and regulations. OIG is responsible for
determining agencies’ compliance with IPERA in accordance with OMB Memorandum M-11-16
and reporting the results within 120 days of publication of the organization’s AFR.

Methodology
To fulfill these responsibilities, OIG did the following:

    •   Obtained an understanding of MCC's internal control over improper payments and
        compliance with IPERA.

    •   Reviewed "Management's Decision and Analysis" and improper payments reporting
        details in MCC's FY 2013 AFR to ensure compliance with IPERA requirements.

    •   Evaluated the overall presentation of the improper payments and risk assessment in the
        AFR.

    •   Tested relevant internal controls over improper payments, and evaluated the design and
        operating effectiveness of the internal controls.

    •   Tested MCC compliance with the specific IPERA requirements.

Because of inherent limitations in internal control, noncompliance may occur and not be
detected, and such testing may not be sufficient for other purposes.




                                                                                             4
